APPENDIX

Appendix A – Published Opinion of the Ninth Circuit (August 20, 2020)................. 1a
Appendix B – District Court Post-Trial Order Denying Motion for Release
Pending Appeal (April 20, 2020) ......................................................... 20a
Appendix C – District Court Oral Ruling Admitting Data Under Rule 404(b)
(May 17, 2018)...................................................................................... 27a

1a

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No. 18-10500

v.

D.C. No.
4:17-cr-00150-HSG-1

DAVID LAGUE,
Defendant-Appellant.

OPINION

Appeal from the United States District Court
for the Northern District of California
Haywood S. Gilliam, Jr., District Judge, Presiding
Argued and Submitted May 12, 2020
San Francisco, California
Filed August 20, 2020
Before: J. Clifford Wallace and Ryan D. Nelson, Circuit
Judges, and James S. Gwin, * District Judge.
Opinion by Judge Wallace

*

The Honorable James S. Gwin, United States District Judge for the
Northern District of Ohio, sitting by designation.

2a

2

UNITED STATES V. LAGUE
SUMMARY **

Criminal Law
The panel affirmed a former physician’s assistant’s
conviction for distributing controlled substances outside the
usual course of professional practice and without a
legitimate medical purpose to five of his former patients, in
violation of 21 U.S.C. § 841(a)(1), (b)(1)(c), and (b)(2).
The panel held that uncharged prescriptions of controlled
substances in enormous quantities and in dangerous
combinations support a reasonable inference that the
underlying prescriptions were issued outside the usual
course of professional practice and without a legitimate
medical purpose. The panel wrote that the defendant’s
practice-wide evidence was therefore probative of his
unlawful intent, undermining his defense at trial that the
charged prescriptions amounted to “a few bad judgments.”
The panel concluded that because the prescription data made
the intent element of the section 841 charges more probable,
the district court properly admitted the defendant’s
uncharged prescriptions under Fed. R. Evid. 404(b).
The panel assumed, without deciding, that the district
court abused its discretion under Fed. R. Evid. 403 by failing
to preview all of the underlying prescription data before
admitting it into evidence, but held that any error was
harmless based on the overwhelming evidence of guilt.

**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

3a

UNITED STATES V. LAGUE

3

The panel resolved remaining evidentiary objections in a
concurrently-filed memorandum disposition.

COUNSEL
Leah Spero (argued), Spero Law Office, San Francisco,
California, for Defendant-Appellant.
Joshua Halpern (argued), Attorney, United States
Department of Justice, Washington, D.C.; Merry Jean Chan,
Chief, Appellate Section; David L. Anderson, United States
Attorney; United States Attorney’s Office, San Francisco,
California; for Plaintiff-Appellee.

OPINION
WALLACE, Circuit Judge:
David Lague, a former physician’s assistant, was
convicted of thirty-nine counts of distributing controlled
substances outside the usual course of professional practice
and without a legitimate medical purpose to five of his
former patients, in violation of 21 U.S.C. § 841(a)(1),
(b)(1)(c), and (b)(2). Lague appeals from his judgment of
conviction, arguing that the district court erred in allowing
the government to present evidence of his uncharged
practice-wide prescriptions. 1 We have jurisdiction under
28 U.S.C. §§ 1291 and 1294, and we affirm.

1

We resolve Lague’s remaining evidentiary objections in a
concurrently-filed memorandum disposition.

4a

4

UNITED STATES V. LAGUE
I.

In 2007, Lague began working as a physician’s assistant
at a chronic pain-management medical practice in San
Leandro, California. He was licensed to prescribe controlled
substances including opioids.
In 2016, after Lague’s patient SL 2 was arrested for
possession with the intent to distribute opioids that Lague
had prescribed to him, SL agreed to cooperate with the Drug
Enforcement Administration’s (DEA) investigation into the
clinic.
At the direction of the DEA, SL recorded his future visits
to the clinic. During one visit in 2016, SL offered cash to
Lague in exchange for doubling his prescription for
oxycodone. Lague wrote the double prescription, falsely
recording in his patient notes that SL had asked for it simply
to save money on his copay for the following month. Lague
and SL discussed how Lague would write the prescription to
avoid scrutiny from the pharmacy. SL would fill the
prescription at one pharmacy but would refill his
prescription the next month at a different pharmacy.
In his patient notes, Lague claimed to monitor SL’s
compliance through urine testing. But the urine tests
revealed that SL had not been taking any of his prescriptions.
Lague never confronted SL about the negative urine test
results, and falsely wrote in his notes that SL was following
his opioid agreement.

2

As was done at trial, we refer to Lague’s former patients using their
initials to preserve their anonymity.

5a

UNITED STATES V. LAGUE

5

In March 2017, the DEA executed a search warrant at the
clinic, seizing over one hundred patient files. Based on those
patient files and on SL’s recordings, the government charged
Lague with thirty-nine counts of unlawfully distributing
Schedule II and Schedule IV controlled substances to five
former patients: SL, DL, KO, JF, and MCM. The
government also charged Lague with seven counts of
healthcare fraud and conspiracy to commit healthcare fraud
for unlawfully prescribing fentanyl to MCM.
At trial, both parties presented a medical expert. The
government called Dr. Charles Szabo. Lague called
Dr. Gary Martinovsky. The experts opined on whether the
charged prescriptions were within the usual course of
professional practice.
The experts focused on Lague’s charged prescriptions,
testifying about various pain-management standards from
the California Medical Board Guidelines, the American Pain
Society Guidelines, and the Center for Disease Control and
Prevention Guidelines. 3
These guidelines provide
recommended prescribing amounts based on generally
accepted medical standards.
Medical standards also warn of the risks of consuming
controlled substances in certain combinations. For example,
drug addicts combine opioids like oxycodone and
hydrocodone with a benzodiazepine for an enhanced but
dangerous “high.” Drug addicts may take this combination
with a muscle relaxant, forming the “holy trinity,” for an
3

The medical community refers to “milligrams of morphine
equivalent,” or “MME,” to measure and compare the prescriptions of
different opioids. Each opioid is assigned a conversion factor based on
its potency relative to morphine.

6a

6

UNITED STATES V. LAGUE

even more dangerous “high.” The “holy trinity” of drugs
rarely serves a legitimate medical purpose.
To monitor patients’ pill-seeking behaviors, medical
professionals perform urinalysis testing. The testing is
designed to detect the consumption of unprescribed
substances (a sign of drug addiction), and the
nonconsumption of prescribed medications (a sign of illegal
sales). Professionals also rely on other warning signs such
as a patient seeking an early prescription refill.
At trial, the government presented evidence that Lague
had prescribed enormous quantities of controlled substances
in dangerous combinations to the five patients covered by
the Second Superseding Indictment. The government
presented the recordings of SL’s visits. The government also
presented the patient files of Lague’s five patients. Two of
Lague’s former patients testified at trial, corroborating SL’s
testimony that Lague had falsified patient files and had not
examined patients before prescribing controlled substances.
The government also introduced Lague’s statements in
his interview with the DEA and his testimony before the
grand jury. In his interview with the DEA, Lague said that
he did not want to be a “policeman” with his patients. He
also said that it was “possible” that he had falsified his
patients’ files. Before the grand jury, Lague acknowledged
that the level of opiates prescribed at the clinic, especially
starting in 2015, was higher than appropriate.
In addition to this patient-specific evidence, the
government introduced Lague’s practice-wide prescription
data from 2015 and 2016 to show how Lague’s prescription
levels compared to that of other opioid prescribers, including

7a

UNITED STATES V. LAGUE

7

Dr. Martinovsky. 4
The data concerned Lague’s
prescriptions for 458 patients unrelated to the Second
Superseding Indictment. The prescription data showed that
Lague had prescribed opioids at among the highest rates
compared to other pain management prescribers in
California.
Robert Gibbons testified about the prescription data. For
his testimony, Gibbons, a statistician at the U.S. Department
of Health and Human Services, relied on Medicare’s
Integrated Data Repository. Gibbons presented a series of
charts comparing Lague’s practices to three groups of
practitioners: providers who prescribe opioids to over
50 Medicare patients, providers specializing in pain
management and anesthesiology, and providers specializing
in cancer treatment. The data showed that in 2016, Lague
issued more opioids than any other Medicare prescriber in
California. Gibbons testified that Lague’s prescription data
“made him an outlier” and that Lague’s prescribed opioids
were “quite a bit higher” than 99 percent of prescribers
Gibbons compared.
Paul Short also testified about Lague’s practice-wide
prescription data. Short relied on California’s Controlled
Substances Utilization Review and Evaluation System
(CURES), an aggregator of controlled substances filled by
California pharmacies. Short presented charts that showed
that Lague had prescribed 1.4 million Schedule II pills in
2016, that Lague’s methadone and oxycodone prescriptions
4
Before trial, the government moved in limine seeking the
admission of Lague’s practice-wide prescription data during trial. The
district court granted the motion, holding that the practice-wide evidence
was probative of Lague’s intent and knowledge to write the charged
prescriptions without a legitimate medical purpose.

8a

8

UNITED STATES V. LAGUE

exceeded the maximum recommended dosages, that Lague
often prescribed a combination of opioids and
benzodiazepines, and that Lague prescribed the “holy
trinity” to some of his patients.
The government recalled Short as a rebuttal witness to
compare Lague’s prescription practices with those of
Lague’s expert, Dr. Martinovsky using the CURES data.
The rebuttal testimony showed that Lague’s prescription
amounts dwarfed Dr. Martinovsky’s.
After the conclusion of the trial in July 2018, the jury
found Lague guilty of the unlawful distribution charges.
Lague was convicted for doubling SL’s opioid prescriptions
so that he could sell the excess, and for prescribing
controlled substances in enormous quantities and dangerous
combinations to DL, KO, MCM, and JF. Lague was
acquitted of the healthcare fraud charges. The district court
sentenced Lague to 120 months imprisonment for his
unlawful Schedule II prescriptions and to 60 months
imprisonment for his unlawful Schedule IV prescriptions, to
be served concurrently. This appeal followed.
II.
We review the question whether specific evidence falls
within the scope of Federal Rule of Evidence 404(b) de
novo. See United States v. Carpenter, 923 F.3d 1172, 1180–
81 (9th Cir. 2019) (citation omitted). We review the district
court’s admission of “other act” evidence for an abuse of
discretion. Id. If the district court abuses its discretion under
Rule 403, we ask “whether the government successfully bore
its burden of proof that the error in admitting the evidence
was harmless.” United States v. McElmurry, 776 F.3d 1061,
1070 (9th Cir. 2015).

9a

UNITED STATES V. LAGUE

9

III.
A.
It is generally “unlawful for any person knowingly or
intentionally . . . to manufacture, distribute, or dispense, or
possess with intent to manufacture, distribute, or dispense, a
controlled substance.” 21 U.S.C. § 841(a)(1). A medical
professional’s prescription of a controlled substance is
lawful only if “issued for a legitimate medical purpose by an
individual practitioner acting in the usual course of his
professional practice.” 21 C.F.R. § 1306.04; see also United
States v. Moore, 423 U.S. 122, 124 (1975).
Lague argues that the district court erred, under Federal
Rule of Evidence 404(b), by granting the government’s
motion in limine to present data of his practice-wide
prescriptions.
He contends that these uncharged
prescriptions do not support an inference that he intended to
write the charged prescriptions outside the usual course of
professional practice and without a legitimate medical
purpose. 5

5

The government also argues that the prescription data was
admissible because it was intrinsic to the charged conduct. Evidence of
“other acts” is admissible irrespective of Rule 404(b) if the evidence is
inextricably intertwined with the charged conduct. United States v.
Beckman, 298 F.3d 788, 793 (9th Cir. 2002). This exception applies
when (1) particular acts of the defendant are part of a single criminal
transaction, or when (2) the “other act” evidence is necessary for the
government to offer a coherent story of the crime. Id. at 794 (citation
omitted).
The intrinsic evidence exception to Rule 404(b) does not apply here.
The uncharged prescriptions are not part of the section 841 charges, nor

10a

10

UNITED STATES V. LAGUE

We begin with the text of Federal Rule 404(b). See
United States v. Boulware, 384 F.3d 794, 807 (9th Cir.
2004). Under Federal Rule 404(b), “[e]vidence of a crime,
wrong, or other act is not admissible to prove a person’s
character in order to show that on a particular occasion the
person acted in accordance with the character.” Fed. R.
Evid. 404(b)(1). But other act evidence may be admissible
to prove “motive, opportunity, intent, preparation, plan,
knowledge, identity, absence of mistake, or lack of
accident.” Fed. R. Evid. 404(b)(2).
We apply a four-part test to determine whether “other
act” evidence is admissible. A district court may admit other
act evidence if: (1) the evidence tends to prove a material
point; (2) the other act is not too remote in time; (3) the
evidence is sufficient to support a finding that defendant
committed the other act; and (4) (in certain cases) the act is
similar to the offense charged. See United States v. Bailey,
696 F.3d 794, 799 (9th Cir. 2012) (citation omitted). The
government “has the burden of proving that the evidence
meets all of the above requirements.” United States v.
Arambula-Ruiz, 987 F.2d 599, 602 (9th Cir. 1993) (citation
omitted).
Lague argues that the government failed to meet its
burden under the first part of our Rule 404(b) analysis, i.e.,
that his practice-wide evidence did not tend to prove a point
material to the unlawful distribution charges because there
was no evidence that those underlying prescriptions were
issued unlawfully. We agree with Lague that, under Rule
404(b), “the government . . . bears the burden of proving a
logical connection between appellant’s purported
are they necessary for the government to offer a coherent narrative of
Lague’s crimes.

11a

UNITED STATES V. LAGUE

11

involvement in the previous [act] and a material fact at issue
in the crime with which he was charged.” United States v.
Mayans, 17 F.3d 1174, 1183 (9th Cir. 1994).
As is relevant here, the “material fact at issue” is whether
Lague intended to prescribe controlled substances to the five
patients covered by the Second Superseding Indictment
without a legitimate medical purpose. United States v.
Rendon-Duarte, 490 F.3d 1142, 1144–45 (9th Cir. 2007). If
Lague’s aberrational prescription data is probative of his
intent to prescribe the underlying, uncharged prescriptions
without a legitimate medical purpose, there is a logical
connection between the “other” prescriptions and the
charged prescriptions.
But we have not yet decided whether a medical
professional’s practice-wide prescription data is probative of
unlawful intent in a section 841 charge. We therefore now
turn to our sister circuits for guidance.
The government relies on the Eleventh Circuit’s
decision, United States v. Merrill, 513 F.3d 1293 (11th Cir.
2008). The defendant in Merrill was a physician charged
with distributing controlled substances in violation of
section 841(a). Id. at 1297. At trial, the physician insisted
that his charged prescriptions were issued for a legitimate
medical purpose. Id. at 1299. The district court allowed the
government to introduce evidence of more than 33,000
prescriptions the physician had written during the relevant
three-year period. Id. After his conviction, the defendant
argued on appeal that the district court had abused its
discretion by admitting the uncharged prescriptions under
Rule 404(b). Id.
But the Eleventh Circuit upheld the physician’s
conviction and concluded that the district court “did not

12a

12

UNITED STATES V. LAGUE

abuse its discretion in admitting either the summary or the
individual prescriptions underlying” the practice-wide data.
Id. at 1303. The Eleventh Circuit explained that the
“evidence of the quantity and combination of prescriptions”
the physician had written was “directly related to” whether
he was “relieved of liability under the Controlled Substances
Act because he acted in the ‘usual course of a professional
practice.’” Id. This was because a “jury may consider
prescription data sets outside those specifically charged in
the indictment to determine whether a physician has
exceeded the legitimate bounds of medical practice.’” Id.,
citing United States v. Harrison, 651 F.2d 353, 355 (5th Cr.
1981).
Lague, for his part, relies on the Eighth Circuit’s
decision, United States v. Jones, 570 F.2d 765 (8th Cir.
1978). The physician in that case was also charged with
intentionally distributing a Schedule II controlled substance
under section 841. Id. at 766. At trial, the district court
allowed the government to introduce evidence of 478 other
prescriptions for Schedule II drugs the physician had written
for his former patients as evidence of his unlawful intent to
write the charged prescriptions. Id. Upon being convicted,
the physician argued on appeal that the district court had
erred in admitting the evidence of the uncharged
prescriptions. Id.
The Eighth Circuit agreed with the physician and
reversed the section 841 conviction. Id. The Eighth Circuit
observed that the “other” prescriptions could be logically
connected to the crime charged only if the physician wrote
those “other” prescriptions “outside the bounds of
professional medical practice.” Id. But unlike the Eleventh
Circuit in Merrill, the Eighth Circuit held that, without
specific evidence of the treatment of the patients underlying

13a

UNITED STATES V. LAGUE

13

those “other” prescriptions, the quantity of the prescriptions
was not probative of whether the physician had “acted
unprofessionally.” Id.
Lague and the government ask us to distinguish the case
before us from Merrill and Jones respectively. We now turn
to that issue.
We disagree with Lague that Merrill is different from
this case. Lague contends that Merrill is inapposite because
the government there had to prove a scheme to defraud
involving excessive quantities of drugs. We acknowledge
that the Eleventh Circuit’s opinion in Merrill had referenced
its earlier discussion that “evidence of the quantity and
combination of prescriptions . . . during the relevant period
is directly related to the issue of whether [the physician]
committed health care fraud.” Merrill, 513 F.3d at 1303.
But in Merrill, the Eleventh Circuit independently
concluded that the physician’s practice-wide prescription
data was admissible under Rule 404(b) because it tended to
prove the intent element of the section 841(a) charges, i.e.,
whether the physician intended to act “in the usual course of
professional practice.” Id. We read Merrill to affirm the
admission of practice-wide uncharged prescriptions under
Rule 404(b) irrespective of any nexus to a healthcare fraud
charge. 6
We also disagree with the government that this case is
different from Jones. The government asserts that Jones was
decided against the backdrop of the clear-and-convincing
standard the government was required to overcome when
6

We are similarly unpersuaded by the Tenth Circuit’s suggestion
that the holding in Merrill was limited to the fraud charges. See United
States v. MacKay, 715 F.3d 807, 841 (10th Cir. 2013).

14a

14

UNITED STATES V. LAGUE

seeking to admit “other act” evidence before the Federal
Rules of Evidence was codified. We disagree. In Jones, the
Eighth Circuit acknowledged that the government’s burden
of proof to have “other acts” admitted into evidence had been
relaxed by the Federal Rules of Evidence. Jones, 570 F.2d
at 768 (explaining the evolution of a proponent’s burden of
proof under Rule 404(b)).
Simply put, Merrill and Jones are irreconcilable. Faced
with this split of authority, and after carefully examining the
law of our circuit, we hold that the Eleventh Circuit’s
opinion in Merrill better comports with the text and purpose
of Rule 404(b).
“Rule 404(b) is a rule of inclusion—not exclusion—
which references at least three categories of other ‘acts’
encompassing the inner workings of the mind: motive,
intent, and knowledge.” United States v. Curtin, 489 F.3d
935, 944 (9th Cir. 2007) (en banc). Under our “low
threshold test of sufficien[cy],” United States v. Dhingra,
371 F.3d 557, 566 (9th Cir. 2004), the government “need not
prove Rule 404(b) evidence by a preponderance of the
evidence,” Bailey, 696 F.3d at 799. Instead, the government
need only lay a factual foundation from which a “jury could
reasonably conclude that [the defendant] committed the
allegedly-similar bad acts,” and that he possessed the
requisite intent in committing those bad acts. Id., citing
Huddleston v. United States, 485 U.S. 681, 685 (1988); see
also Fed. R. Evid. 104(b). In deciding where “other act”
evidence is relevant to prove intent, we defer to the “district
judge’s own experience, general knowledge, and
understanding of human conduct and motivation.” Curtin,
489 F.3d at 948, quoting McCormick on Evidence § 185 (6th
ed. 2006) (emphasis and alteration omitted).

15a

UNITED STATES V. LAGUE

15

Applying this relaxed standard, we hold that uncharged
prescriptions of controlled substances in enormous
quantities, and in dangerous combinations, support a
reasonable inference that the underlying prescriptions were
issued outside the usual course of professional practice and
without a legitimate medical purpose. Lague’s practicewide evidence was therefore probative of his unlawful
intent, undermining his defense at trial that the charged
prescriptions amounted to “a few bad judgments.” 7 Because
the prescription data made the intent element of the section
841 charges more probable, the district court properly
admitted Lague’s uncharged prescriptions under Rule
404(b).
B.
Next, Lague contends that the district court abused its
discretion, under Federal Rule of Evidence 403, by failing to
preview the underlying prescription data before admitting it
into evidence. See Curtin, 489 F.3d at 958 (holding that a
district court “does not properly exercise its balancing
discretion under Rule 403 when it fails to place on the scales
and personally examine and evaluate all that it must weigh”).
We assume, without deciding, that the district court abused
its discretion by failing to preview all of the prescription data

7

We have held that “other act” evidence is probative of intent in
similar circumstances. See United States v. Garrison, 888 F.3d 1057,
1060, 1064 (9th Cir. 2018).

16a

16

UNITED STATES V. LAGUE

before granting the government’s motion in limine. 8, 9 We
hold that any error was harmless based on the overwhelming
evidence of guilt against Lague.
The burden to show that the evidentiary trial error was
harmless falls on the government, and our review begins
with a “presumption of prejudice.” Bailey, 696 F.3d at 803.
Reversal is not required if “there is a ‘fair assurance’ of
harmlessness or, stated otherwise, unless it is more probable
than not that the error did not materially affect the verdict.”
Id., quoting United States v. Morales, 108 F.3d 1031, 1040
(9th Cir. 1997) (en banc); see also United States v. RendonDuarte, 490 F.3d 1142, 1144–45 (9th Cir. 2007). We have
“found harmless error despite the erroneous admission of
evidence” where “the properly admitted evidence was highly
persuasive and overwhelmingly pointed to guilt.” Bailey,
696 F.3d at 804 (citations omitted).
Although Lague’s prescription data was presented
through two witnesses and highlighted in the government’s
opening statement and closing argument, the focus of the
nearly two-week trial was on the charged prescriptions. The
government admitted the patient files, presented the
testimony of one patient’s father, a patient’s former surgeon,
and investigators. Thus, even without the uncharged

8
In the government’s motion in limine, the 2015 data was not
presented to the district court; the government simply represented that
the 2015 data was “similar” to the 2016 data.
9

We also assume, without deciding, that the district court’s
admission of Lague’s practice-wide evidence under Rule 403 is reviewed
for an abuse of discretion.

17a

UNITED STATES V. LAGUE

17

prescription data, 10 the case was not as close as Lague
suggests.
The jury also had access to the patients’ medical charts
underlying the unlawful distribution charges, showing
continued “red flags” such as use of illegal drugs and, most
importantly, the prescriptions for the charged patients that
showed copious prescribed controlled substances. For
example, the evidence revealed that Lague doubled SL’s
opioid prescriptions without asking SL about his pain, and
that he covered it up by falsely telling the pharmacy that it
was for a two-month prescription. The evidence also
showed that Lague had prescribed opioids to DL, a drug
addict, multiple times the CDC’s limit for exercise-induced
shoulder pain, despite his urine test showing that he was
using cocaine and unprescribed morphine and Xanax. Lague
also prescribed DL a benzodiazepine and an amphetamine
on top of the opioids. Based on the patient-specific
evidence, the government certainly cleared the “benchmark
for criminal liability” by proving that Lague “intentionally
. . . distributed controlled substances for no legitimate
medical purpose and outside the usual course of professional
practice.” United States v. Feingold, 454 F.3d 1001, 1010
(9th Cir. 2006). 11

10

Dr. Martinovsky’s prescription data played an even more minor
role in the trial and did not meaningfully impact the jury’s verdict in light
of the overwhelming evidence of Lague’s guilt.
11

Evidence of Lague’s unlawful intent to distribute controlled
substances without a legitimate medical purpose to JF, KO, and MCM
was similarly compelling. Lague prescribed JF, a self-described drug
addict, 50 times the CDC ceiling for oxycodone for a weight-lifting

18a

18

UNITED STATES V. LAGUE

We disagree with Lague that the prescription data “was
impossible to defend against.” Lague’s trial counsel
successfully cabined the weight of the prescription data,
inducing the government’s witnesses to concede that the
prescription data was not highly probative of Lague’s guilt.
If Lague had rebuttal evidence that the uncharged
prescriptions were legitimate, he could have presented it.
We also disagree with Lague that the district court was
required to give a specific limiting instruction after the
government introduced the prescription data. The district
court read a general limiting instruction to the jury before
their deliberations. Lague did not request a more specific
instruction during trial. This general instruction mitigated
the prejudice of admitting the “other act” evidence. See
United States v. Hardrick, 766 F.3d 1051, 1056 (9th Cir.
2014). That the jury acquitted Lague of healthcare fraud and
was able to compartmentalize the evidence on the various
charges also militates against Lague’s claim of prejudice.
See Park v. California, 202 F.3d 1146, 1150 (9th Cir. 2000).
Thus, the admissible evidence at trial shows that Lague
“gave inadequate physical examinations or none at all,” that
injury despite red flags such as refilling prescriptions too soon and in
increasing quantities and asking for more easily abused drugs.
Lague prescribed KO seven-times the CDC limit for opioids for
back pain. After she began treatment at the clinic, she tested positive for
cocaine three times in a year, but negative for the hydrocodone she was
prescribed. Lague later prescribed KO the “holy trinity” of drugs.
Lague prescribed enormous quantities of fentanyl (50 times the
CDC daily ceiling) to MCM, despite knowing she was a heroin user.
Lague later increased the fentanyl dosage and justified the increase
because of MCM’s need to manage stress related to her divorce, sister’s
wedding, and trip to Disneyland.

19a

UNITED STATES V. LAGUE

19

he “ignored the results of the tests he did make,” that he took
minimal “precautions against [the] misuse and diversion” of
controlled substances, and that he prescribed “as much and
as frequently as the patient demanded.” Moore, 423 U.S. at
142–43. We reject Lague’s characterization of the trial as
one based on the credibility of two competing expert
witnesses. We therefore hold that it was more probable than
not that any Rule 403 error in admitting the prescription data
did not materially affect the jury’s verdict.
IV.
Lague’s practice-wide prescription data was admissible
under Rule 404(b)(2) to prove his unlawful intent to
distribute controlled substances outside the usual course of
professional practice. Even if we assume that the district
court abused its discretion, under Rule 403, by failing to
preview all of the underlying prescription data admitted at
trial, the result would be the same. The patient-specific
evidence overwhelmingly pointed to Lague’s guilt, and thus,
any Rule 403 error would be harmless.
AFFIRMED.

20a
1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6
7

USA,

Case No. 17-cr-00150-HSG-1
Plaintiff,

8
v.

9

Re: Dkt. No. 212

10

LAGUE,
Defendant.

11
United States District Court
Northern District of California

ORDER DENYING MOTION FOR
RELEASE PENDING APPEAL

12
Pending before the Court is Defendant David Lague’s motion for release pending appeal.

13
14

See Dkt. No. 212. The Court held a telephonic hearing on April 17, 2020.1 For the reasons

15

discussed below, the Court DENIES the motion.

16

I.

BACKGROUND

17

On July 24, 2018, a jury convicted Mr. Lague, a former physician’s assistant, of 39 counts

18

of unlawful distribution of controlled substances to five different patients. See Dkt. No. 145. Mr.

19

Lague sought release pending sentencing to see his 95-year-old father, see Dkt. No. 158, and the

20

Court granted the request, see Dkt. Nos. 169, 170. On November 14, 2018, the Court denied Mr.

21

Lague’s motion for a new trial. Dkt. No. 181. The Court then sentenced Mr. Lague on December

22

17, 2018, committing him to the custody of the United States Bureau of Prisons (“BOP”) to be

23

imprisoned for 120 months. See Dkt. Nos. 191, 197.
Mr. Lague timely noticed his appeal. See Dkt. No. 192; see also United States v. David

24
25

Lague, Case No. 18-10500 (9th Cir.). The briefing in the appeal is complete and oral argument is

26

currently set for May 12, 2020. See id. at Dkt. Nos. 44, 48. At the time he filed his appeal,

27
28

1

During the hearing, defense counsel confirmed that to the extent Mr. Lague has any right to
appear at and participate in the hearing, Mr. Lague waives that right.

21a
1

however, Mr. Lague did not seek bail pending the resolution of his appeal. Instead, on March 30,

2

2020—over fifteen months after filing his appeal—Mr. Lague filed the pending motion. See Dkt.

3

No. 212. Mr. Lague contends that he meets the traditional factors detailed below, and also cites

4

the current COVID-19 pandemic as an additional exceptional circumstance warranting release

5

pending appeal. See Dkt. No. 212. If released, Mr. Lague intends to live with his wife in San

6

Jose. See id. at 12; see also Dkt. No. 213 at ¶ 3.

7
8
9
10

United States District Court
Northern District of California

11

II.

LEGAL STANDARD
A defendant convicted of a non-violent crime shall be detained pending appeal unless the

court finds the following:
(A) by clear and convincing evidence that the person is not likely to flee or pose a danger
to the safety of any other person or the community if released under section 3142(b) or (c)
of this title; and

12
13

(B) that the appeal is not for the purpose of delay and raises a substantial question of law
or fact likely to result in--

14

(i) reversal,

15

(ii) an order for a new trial,

16
17

(iii) a sentence that does not include a term of imprisonment, or

18

(iv) a reduced sentence to a term of imprisonment less than the total of the time
already served plus the expected duration of the appeal process.

19

18 U.S.C. § 3143(b)(1). “If the judicial officer makes such findings, such judicial officer shall

20

order the release of the person . . . .” Id. The Act “shifted the burden of proof from the

21

government to the defendant,” which “mak[es] it considerably more difficult for a defendant to be

22

released on bail pending appeal.” United States v. Handy, 761 F.2d 1279, 1283 (9th Cir. 1985).

23

Whether a person is likely to flee, is likely to pose a danger to the safety of others or the

24

community, or appeals the conviction for the purpose of delay are questions of fact. See United

25

States v. Khan, No. 12-cr-0860-YGR, 2014 WL 2930656, at *2 (N.D. Cal. June 27, 2014).

26

Whether the appeal “raises a substantial question of law or fact likely to result in” one of the four

27

statutory outcomes involves a two-step inquiry. First, courts consider whether the appellate

28

question is “substantial,” which goes to “the level of merit required in the question presented.”
2

United States District Court
Northern District of California

22a
1

Handy 761 F.2d at 1280. And while all other circuits employ a more rigorous standard, the Ninth

2

Circuit defines a “substantial” question as a question that is “fairly debatable.” Id. at 1281; see 3B

3

Charles Alan Wright et al., Federal Practice and Procedure Criminal § 770 (4th ed. 2018)

4

(identifying other circuits’ standards). Identifying an appellate argument alone is not enough;

5

rather, a defendant must explain “the basis for that argument” and articulate why the argument is

6

likely to prevail. United States v. Montoya, 908 F.2d 450, 450–51 (9th Cir. 1990). At the second

7

step, courts consider whether the issue is sufficiently important to the case’s merits that a contrary

8

appellate holding is “likely to result in” reversal or a new trial, which goes to “the type of question

9

that must be presented.” Handy 761 F.2d at 1280. Courts at this step do not predict the odds of

10

reversal, which would be “tantamount to requiring the district court to certify that it believes its

11

ruling to be erroneous.” Id. at 1281. Courts instead consider the significance of a contrary

12

appellate holding on the substantial question to the ultimate disposition of the appeal: “A court

13

may find that reversal or a new trial is ‘likely’ only if it concludes that the question is so integral

14

to the merits of the conviction on which defendant is to be imprisoned that a contrary appellate

15

holding is likely to require reversal of the conviction or a new trial.” Khan, 2014 WL 2930656, at

16

*2 (citing United States v. Miller, 753 F.2d 19, 23 (3d Cir. 1985)).
Because Mr. Lague’s conviction involved a drug offense subject to a maximum term of

17
18

imprisonment of at least ten years, he may be released only if “‘it is clearly shown that there are

19

exceptional reasons why [his] detention would not be appropriate.’” United States v. Garcia, 340

20

F.3d 1013, 1015 (9th Cir. 2003) (quoting 18 U.S.C. § 3145(c)).

21

III.

DISCUSSION2
A.

22

No Flight Risk or Danger to Others
Mr. Lague contends that he neither is likely to flee nor poses a danger to the safety of any

23
24
25
26
27
28

2

Although the timing of this motion is highly unusual, the parties agree that the Court retains
jurisdiction to consider Mr. Lague’s request. See Dkt. No. 219. The Court agrees that Section
3143(b) appears to allow the Court to decide the motion despite the fact that Mr. Lague has
already been committed to the custody of the BOP and served part of his 120-month sentence. Cf.
United States v. Zimny, 857 F.3d 97, 99 (1st Cir. 2017) (reversing denial of release pending
appeal, where defendant was already in BOP custody); United States v. Snyder, 946 F.2d 1125,
1126 (5th Cir. 1991) (holding that district court had jurisdiction to rule on motion for release
pending petition for writ of certiorari where defendant had been ordered into BOP custody).
3

23a
1

other person or the community if released pending appeal. The government appears to agree,

2

acknowledging that it had previously conceded as much, see Dkt. No. 167, and does not contest

3

that point here, see Dkt. No. 215 at 3. Mr. Lague was convicted of nonviolent offenses and has no

4

other criminal history or history of violence. See Dkt. No. 182 at 9. He remained out on bail

5

during trial and prior to sentencing, and there is nothing before the Court now to suggest that

6

calculus has changed since he has been incarcerated. Mr. Lague therefore has met his burden

7

under Section 3143(b)(1)(A).

8

B.

Mr. Lague also argues that neither his appeal nor this motion was filed for the purpose of

9

United States District Court
Northern District of California

No Purpose of Delay

10

delay. Indeed, Mr. Lague appears to have timely filed the appeal and completed briefing. The

11

government likewise does not argue that Mr. Lague’s appeal is for the purpose of delay. See Dkt.

12

No. 215 at 3. The Court does not ascribe any improper motive to Mr. Lague’s decision to appeal.

13

Accordingly, the Court finds the Mr. Lague has established with clear and convincing evidence

14

that his appeal is not for the purpose of delay

15
16

C.

Substantial Question
Mr. Lague next contends that his appeal raises substantial questions of law, including

17

whether the Court erred in admitting several pieces of evidence during trial. See Dkt. No. 212 at

18

5–9. First, the Court granted the government’s request under Federal Rule of Evidence 404(b) to

19

admit data relating to Mr. Lague’s prescriptions and how his prescriptions compared to those of

20

other physicians in California as evidence of Mr. Lague’s intent to issue prescriptions without a

21

medical purpose. Id. at 5. Mr. Lague contends that the prescription data did not, on its own, raise

22

an inference that the prescriptions were unlawful, and therefore could not raise an inference of

23

unlawful intent. Id. at 6. Second, the Court allowed the government to introduce evidence of

24

three patient overdose deaths, finding that defense counsel had opened the door to such evidence

25

during the cross examination of the government’s medical expert. Id. at 7. Mr. Lague argues that

26

defense counsel did not open the door during cross examination, and that in any event, the

27

evidence was inadmissible under Rule 404(b) to show Mr. Lague’s intent to consciously disregard

28

the risk of overdose death because he did not know about the deaths at the relevant time. Third,
4

24a
1

Mr. Lague contends that evidence of pill seekers becoming patients in Mr. Lague’s practice was

2

irrelevant to whether Mr. Lague prescribed pills outside the scope of professional practice. Id. at

3

7–8.
In response, the government argues that Mr. Lague has not demonstrated that his appeal

United States District Court
Northern District of California

4
5

raises a substantial question of law as to all of his counts of conviction. See Dkt. No. 217 at 3. At

6

least two of the counts, it explains, were not based on the evidence detailed above, but rather on

7

videotaped meetings between Mr. Lague and a confidential informant. Id. at 4. The Court does

8

not agree that the three evidentiary issues that Mr. Lague raises can be so easily

9

compartmentalized. The jury was exposed to all this evidence when deliberating and could have

10

considered it when determining whether Mr. Lague was predisposed to prescribe medication

11

without a legitimate medical purpose.3
The Court does not agree that admitting this evidence was error. Nevertheless, the Court

12
13

finds that these evidentiary issues are “fairly debatable,” meaning “something more than the

14

absence of frivolity” and “debatable among jurists of reason.” Handy, 761 F.2d at 1281–82

15

(quotations omitted). The Court further finds that these evidentiary questions are sufficiently

16

important to the case’s merits that a contrary appellate holding is “likely to result in” reversal or a

17

new trial. See Handy 761 F.2d at 1280. The government relied on this evidence, particularly the

18

prescription data, extensively throughout trial, and if credited by the jury the evidence reasonably

19

could have affected whether the jury thought Mr. Lague’s prescriptions were unlawful. The Court

20

finds that Mr. Lague has met his burden under Section 3143(b).

21

D.

Exceptional Reasons
The Court understands that Mr. Lague filed this motion, at least in part, because of the

22
23
24
25
26
27
28

3

The Court also notes that the defense did not formally concede at trial that the offense elements
were met as to these two counts, and argue for acquittal only on the basis of entrapment (even
though it focused heavily on that defense). See Dkt. No. 157 (defense counsel argued at closing
that “[t]he Court will instruct you that with respect to the distribution of these drugs [charged in
Counts One and Two] in order to find Mr. Lague guilty, you must find all of the other factors that
were applicable to the other distribution counts and you must also find that he was not entrapped
into committing the offenses”). See also Dkt. No. 140 at 18 (jury instruction making clear that the
government had the burden of proving three elements with respect to each distribution count, and
additionally had to prove that the defendant was not entrapped as to Counts One and Two only).
5

United States District Court
Northern District of California

25a
1

unprecedented circumstances facing the country in light of the COVID-19 pandemic. Much

2

remains unknown about COVID-19, and the Court acknowledges the unusual challenges facing

3

the penal system given this evolving health crisis. Nevertheless, Congress has created a

4

presumption that defendants like Mr. Lague who are convicted of certain drug offenses shall

5

remain incarcerated absent exceptional reasons. See Garcia, 340 F.3d at 1015 (citing 18 U.S.C.

6

§ 3145(c)). This is a high standard, and the Court must “examine the totality of the

7

circumstances.” Id. at 1019.

8

Mr. Lague details at length the difficulty of social distancing in prison and notes that there

9

has been limited testing of inmates and staff. But the existence of COVID-19 and the limitations

10

of testing both inside and outside of prisons are generalized concerns that affect every inmate in

11

prison. Such generalized concerns do not, on their own, constitute exceptional circumstances. As

12

the Ninth Circuit explained in United States v. Garcia, the Court should “consider circumstances

13

that would render the hardships of prison unusually harsh for a particular defendant.” Id.

14

(emphasis added).

15

Mr. Lague argues that he is particularly at risk because he is 62 and has atrial fibrillation

16

and hypertension. See Dkt. Nos. 212, 218. But the CDC considers adults age 65 and older to be

17

“older adults” at higher risk of severe illness from COVID-19, and atrial fibrillation does not

18

appear to be a risk factor identified by the CDC.4 Mr. Lague, therefore, asks the Court to consider

19

his hypertension an exceptional reason warranting his release pending appeal. The Court does not

20

minimize the risks that COVID-19 poses, but the mere possibility that it may spread to a particular

21

prison and that Mr. Lague, as an inmate there, may contract it does not constitute exceptional

22

reasons warranting his release.

23

//

24

//

25
26
27
28

4

See https://www.cdc.gov/coronavirus/2019-ncov/need-extra-precautions/people-at-higherrisk.html (last visited 4/20/2020); see also https://www.cdc.gov/coronavirus/2019-ncov/needextra-precautions/groups-at-higher-risk.html#serious-heart-conditions (last visited 4/20/2020)
(listing “serious heart conditions” that may put people at higher risk for severe illness from
COVID-19, but not including atrial fibrillation).
6

26a
1

IV.

Given the totality of the circumstances, the Court DENIES the motion for release pending

2
3
4
5
6
7

CONCLUSION

appeal.
IT IS SO ORDERED.
Dated: 4/20/2020
______________________________________
HAYWOOD S. GILLIAM, JR.
United States District Judge

8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
7

27a

UNITED STATES DISTRICT COURT CERTIFIED COPY
NORTHERN DISTRICT OF CALIFORNIA
Before The Honorable HAYWOOD S. GILLIAM, JR., Judge
UNITED STATES OF AMERICA,

)
)
Plaintiff,
)
)
vs.
)
)
DAVID LAGUE,
)
)
Defendant.
)
____________________________)

Pretrial Conference

NO. CR 17-000150 HSG
Pages 1 - 39
Oakland, California
Thursday, May 17, 2018

REPORTER'S TRANSCRIPT OF PROCEEDINGS
APPEARANCES:
For Plaintiff:

BY:

For Defendant:
BY:
Reported By:

Alex G. Tse, Esq.
Acting United States Attorney
450 Golden Gate Avenue
San Francisco, California 94102
RITA LIN,
FRANK J. RIEBLI,
Assistant United States Attorneys
Summit Defense
102 Washington Avenue
Point Richmond, California 94801
JAMES T. REILLY, ATTORNEY AT LAW
Raynee H. Mercado
CSR. No. 8258

Proceedings reported by electronic/mechanical stenography;
transcript produced by computer-aided transcription.

RAYNEE H. MERCADO, CSR, RMR, CRR, FCRR, CCRR (510) 565-7228

2

28a

1

Thursday, May 17, 2018
P R O C E E D I N G S

2
THE CLERK:

3
4
5
6

And we're calling CR17-00150, the United

States of America versus David Lague.
Please step forward and state your appearances for the
record please.
MS. LIN:

7
8

3:03 p.m.

United States.

Good afternoon.

I also have with me Frank Riebli.

THE COURT:

9

Good afternoon Ms. Lin.

MR. REILLY:

10

Rita Lin on behalf of the

Good afternoon.

Jim Reilly with Summit

11

Defense appearing with Mr. Lague, who is present, out of

12

custody.

13
14

THE COURT:

Good afternoon, Mr. Reilly.

So we're here for our pretrial confidence.

I've reviewed

15

the motions in limine and the other submissions and looks as

16

though there is not --

17

MS. LIN:

18

THE COURT:

19
20
21
22

No, Your Honor, from the --- much that's hotly contested.

What were you going to say?
MS. LIN:

Sorry.

I was just going to say no more

filings from the government, Your Honor.
THE COURT:

All right.

Why don't we do this:

Let's

23

start with the motions in limine, and then we can talk about

24

some of the other logistics for the trial.

25

So the government has filed, what, eight motions in
RAYNEE H. MERCADO, CSR, RMR, CRR, FCRR, CCRR (510) 565-7228

3

29a

1

limine?

2

MS. LIN:

3

THE COURT:

4
5

Correct, Your Honor.
All right.

And some were opposed, but it

seemed to me that several weren't.
Really, I think the most substantive likely is motion in

6

limine one regarding the prescription data.

7

or the opposition, as I understand it, to that motion is that

8

the aggregate prescription data is, in essence, irrelevant.

9

And the objection

Really, it seemed to me the defense was relying largely on

10

the Stump case.

11

especially Merrill, which is the Eleventh Circuit case, it's

12

hard for me to conclude that the information is irrelevant to

13

knowledge and intent.

14

But looking at the cases the government cited

To the extent there might be innocent explanations, I

15

think that goes to the weight rather than the admissibility of

16

the evidence.

17

the authority establishes the -- the relevance of that sort of

18

information.

19

But it does strike me that the better part of

And then with regard to the business record dimension, I

20

think that will be the matter of the government simply laying

21

the 803(b) or 803(6) foundation, and assuming that can be

22

done, it strikes me that these likely would be considered

23

business records.

24
25

Mr. Reilly, I'll let you make any record you'd like on the
that motion.
RAYNEE H. MERCADO, CSR, RMR, CRR, FCRR, CCRR (510) 565-7228

30a

MR. REILLY:

1
2

4

No, Your Honor.

I'm prepared to submit

on the written papers.
THE COURT:

3

All right.

So that motion is granted

4

subject to the business record foundation being laid for those

5

records.

6

Motion in limine number two concerns the admissions of

7

testimony of patients not named in the indictment, and there

8

really didn't seem to be any opposition to that, subject, of

9

course, to the defense's right to cross-examine those

10
11

witnesses, and so I will grant that motion.
As to motion in limine three, excluding evidence about

12

whether other prescribers committed the same crimes, as I

13

understand it, Mr. Reilly is indicating that he's not planning

14

to make that argument, correct?

15

MR. REILLY:

16

THE COURT:

17
18

That is correct, Your Honor.
All right.

So I would deny that motion

as moot.
Motion in limine four, offer of proof regarding unnoticed

19

affirmative defenses, you know, there, I think there is a

20

dispute as to whether notice has been given.

21

event, it seemed to me that Mr. Reilly's proposal not to make

22

any reference in his opening and then we'll see whether the

23

defense actually gets presented and, if so, whether there's a

24

basis for an instruction on entrapment struck me as logical,

25

and it sounds to me that the parties agree that before any

But in any

RAYNEE H. MERCADO, CSR, RMR, CRR, FCRR, CCRR (510) 565-7228

